<html>
<title> - THE NATIONAL ENVIRONMENTAL POLICY AND THE ENVIRONMENTAL QUALITY IMPROVEMENT ACT</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




    THE NATIONAL ENVIRONMENTAL POLICY AND THE ENVIRONMENTAL QUALITY 
                            IMPROVEMENT ACT

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                     APRIL 13, 1999, WASHINGTON, DC

                               __________

                           Serial No. 106-21

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
           Committee address: http://www.house.gov/resources

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
56-731 <l-ar/r-ar>           WASHINGTON : 1999




                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                NICK J. RAHALL II, West Virginia
JIM SAXTON, New Jersey               BRUCE F. VENTO, Minnesota
ELTON GALLEGLY, California           DALE E. KILDEE, Michigan
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOEL HEFLEY, Colorado                ENI F.H. FALEOMAVAEGA, American 
JOHN T. DOOLITTLE, California            Samoa
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
KEN CALVERT, California              SOLOMON P. ORTIZ, Texas
RICHARD W. POMBO, California         OWEN B. PICKETT, Virginia
BARBARA CUBIN, Wyoming               FRANK PALLONE, Jr., New Jersey
HELEN CHENOWETH, Idaho               CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   PATRICK J. KENNEDY, Rhode Island
CHRIS CANNON, Utah                   ADAM SMITH, Washington
KEVIN BRADY, Texas                   WILLIAM D. DELAHUNT, Massachusetts
JOHN PETERSON, Pennsylvania          CHRIS JOHN, Louisiana
RICK HILL, Montana                   DONNA CHRISTIAN-CHRISTENSEN, 
BOB SCHAFFER, Colorado                   Virgin Islands
JIM GIBBONS, Nevada                  RON KIND, Wisconsin
MARK E. SOUDER, Indiana              JAY INSLEE, Washington
GREG WALDEN, Oregon                  GRACE F. NAPOLITANO, California
DON SHERWOOD, Pennsylvania           TOM UDALL, New Mexico
ROBIN HAYES, North Carolina          MARK UDALL, Colorado
MIKE SIMPSON, Idaho                  JOSEPH CROWLEY, New York
THOMAS G. TANCREDO, Colorado

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director




                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held April 13, 2000......................................     1

Statement of Members:
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     1
    Miller, Hon. George, a Representative in Congress from the 
      State of California........................................     2
    Vento, Hon. Bruce, a Representative in Congress from the 
      State of Minnesota.........................................     3
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska..................................................     4

Statement of Witnesses:
    Frampton, George T., Jr., Acting Chairman, Council on 
      Environmental Quality, Washington, DC......................     4
        Prepared statement of....................................    32

 
    THE NATIONAL ENVIRONMENTAL POLICY AND THE ENVIRONMENTAL QUALITY 
                            IMPROVEMENT ACT

                              ----------                              


                        TUESDAY, APRIL 13, 1999

                          House of Representatives,
                                    Committee on Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:17 p.m., in 
Room 1324, Longworth House Office Building, Hon. James V. 
Hansen [acting chairman of the Committee] presiding.

 STATEMENT OF HON. JAMES HANSEN, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Hansen. [presiding] The Committee will come to order.
    I am conducting this meeting at the request of Chairman 
Young today. We are meeting today for general oversight of the 
Council of Environmental Quality and the Office of 
Environmental Quality, which serves as staff for the Council.
    At the same time, this hearing gives us a chance to meet 
and greet the Acting Chair of CEQ, George Frampton, who we had 
an experience with before. I am grateful he could be with us. I 
understand you are going before a Senate group this week, and 
more power to you on whatever happens. Mr. Frampton comes to 
this post by way of the Wilderness Society and the Department 
of Interior, in having provided legal assistance to the Vice 
President in connection with certain political campaign finance 
problems.
    My concern is how the CEQ is used. It should not be a 
political operation used for partisan political purposes. It 
should be an office of government that helps people, and 
ensures that all Federal agencies with environmental 
responsibilities work cooperatively and toward the same goals. 
However, these goals should be those of the American people, 
not one of any political party or candidate.
    Last year we made it quite clear to Katie McGinty, your 
predecessor, that CEQ and its Chair and this administration are 
not above the law. Over the last several years, we have 
repeatedly seen the Clinton/Gore Administration abuse and evade 
the rule of law, and ignore the will of Congress. For example, 
in the testimony you submitted today for this hearing, you talk 
about creating environmental policy. I am here to tell you that 
it is not the place of CEQ, or this administration, to create 
the policy; the Constitution grants that to the Congress, the 
legislative branch. The executive branch executes and 
administers the laws we craft. I think the administration needs 
to be reminded from time to time of this fact.
    Finally, I want to say that the Council on Environmental 
Quality needs an incredibly balanced Chair. I know that you 
will be going through the confirmation process over the next 
several weeks, and I am sure that the other body will talk to 
you about that.
    I look forward to our dialogue today. I will now turn to 
the Ranking Member, Mr. Miller, for any statement that he may 
have; the gentleman from California.

 STATEMENT OF HON. GEORGE MILLER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Miller. Thank you, Mr. Chairman. And thank you and 
Chairman Young for holding this hearing.
    I would like to give a very warm welcome to George 
Frampton, and wish him well in the confirmation hearings. I 
think he has been a very, very important person in this 
administration, mainly trying to resolve environmental 
conflicts. He very often has been called to the scene when 
things have gone wrong and had a great opportunity to go off 
the track, and was able to sit down with the parties and put 
things on track. In many instances, local communities, economic 
interests, and others, have a great deal at stake in making 
sure that these issues get resolved. I think we have watched 
his involvement in some of the more complex issues, as in 
CALFED in California, where we are trying to reform and 
modernize, and properly allocate the future of our California 
water system, to the Everglades. Just a few short years ago, we 
were told we were going to lose the Everglades, and almost with 
each passing month we get more optimistic about the 
opportunities to save that system, and to protect that system, 
and to do it in conjunction with the urban water users, with 
the farmers inside of the Everglades, with the sugar growers 
who are to the north of the Everglades, and the people who are 
concerned with the health of the marine resources.
    So, he brings an incredible portfolio to this position and 
he has, time and again, demonstrated that as the Acting 
Director.
    We welcome you, George, very much. Again, thank you for 
holding this hearing.
    Mr. Hansen. Thank you, Mr. Miller.
    Chairman Young, do you have an opening statement?

STATEMENT OF HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF ALASKA

    Mr. Young. It wouldn't be quite as flowery as Mr. Miller's 
was, I would be sure of that one. But, I do welcome the 
witness; I welcome all our witnesses, and we will be looking 
forward to what he has to say about a quasi-agency that exerts 
a tremendous amount of influence upon other agencies within 
this administration.
    I think your opening statement, Mr. Chairman, was very 
close to the fact, that it is the Congress' role to set policy 
and direction, and pass laws, to submit those, and when laws 
are not followed, it becomes very much a concern of my own. So, 
I look forward to the gentleman's testimony today.
    Mr. Hansen. Do any other members have an opening statement? 
Mr. Vento?

STATEMENT OF HON. BRUCE VENTO, REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF MINNESOTA

    Mr. Vento. Mr. Chairman, I would welcome our friend and 
former Assistant Secretary, and wish him well in his hearing 
next week in the Senate with regard to confirmation. I am sure 
he will make an excellent Chairman of the Council of 
Environmental Quality.
    With regard to today's hearing, NEPA, I think, has attained 
a lot of its objectives. I think that, so often, when certain 
laws have been passed, such as NEPA or the Endangered Species 
Act, very often there is, I think, almost an over-reliance on 
individual laws to, in fact, remedy; that is, that they become 
overloaded with different issues that need to be resolved. But, 
I think in the Council on Environmental Quality, you have, as 
you do with several other entities like the Council on Historic 
Preservation, an ability to try and reconcile some of these 
matters between the agencies and departments within the 
administration, and with the public.
    But, I think the NEPA issue under discussion has been, 
obviously, a very important measure to provide us with some 
guideposts and guidance with regard to our environment, and 
with stating the overall objectives of the National Government, 
and the role that it has in terms of protecting the 
environment, and providing for a predictable and stable path in 
terms of development, and a framework for developing 
information and knowledge and public input. So, I think it is a 
good law. It probably could use some changes and modifications, 
but I think it is one that we have come to rely upon as being 
the foundation, really, of our modern-day work in terms of 
analysis.
    I yield to the gentleman from California.
    Mr. Miller. I thank the gentleman from Michigan for 
yielding.
    But I don't know if this hearing is going to be about 
whether or not you set policy or we set policy, but I would say 
this: Very often we write policy that is very difficult to 
carry out. We write policy for the Department of Agriculture, 
and the EPA, and for the Department of Interior, and all the 
rest of it. And all too often, what we have seen is that those 
agencies are at war with one another, while local communities 
and others suffer and wait around for them to come together and 
reconcile their differences.
    CEQ, I think, has been a very important force in, I guess I 
would say, you can call it establishing policy, and I properly 
say so. I have watched it with respect to California water 
resources, where they have held this process together between a 
dozen State agencies, and Federal agencies, and all of the 
local stakeholders, and all of the business organizations, and 
everyone else. The same is true in the Everglades. I mean, 
somebody had to go and get the Corps of Engineers, the 
Department of Agriculture, and Fish and Wildlife, and Marine 
Resource people all together, the Park Service, to come 
together and put together a policy, along with all the local 
people, for cleaning up and protecting the Everglades, so that, 
hopefully, we won't lose that resource.
    If there is a problem with establishing that kind of 
policy, then you have to also understand that if they stood by 
and did nothing, and everything went to hell, you had better 
not blame them. So, you have to either have it all one way or 
all the other, if that is what you are going to object to. 
Maybe I am missing what you are saying about establishing 
policy. I don't know that anybody at CEQ has ever suggested 
that we don't make the policy around here, but we also know it 
is a hell of a lot more difficult to carry out the policy than 
it is to make it.
    Mr. Hansen. Are there any further statements from any of 
the members?
    [No response.]
    If not, Mr. Frampton, we ask you to stand, please, and 
raise your right hand.
    [Witness sworn.]
    Mr. Hansen. Thank you. Mr. Frampton, we turn the time to 
you, and appreciate you being with us today.

 STATEMENT OF GEORGE T. FRAMPTON JR., ACTING CHAIRMAN, COUNCIL 
            ON ENVIRONMENTAL QUALITY, WASHINGTON, DC

    Mr. Frampton. Thank you, Mr. Chairman. Chairman Young, Mr. 
Miller, members of the Committee, it is a pleasure to be back 
in front of this Committee again, and I hope to initiate a new 
dialogue between this Committee and CEQ on issues that are of 
mutual concern to both of us.
    Mr. Chairman, I do have a brief written statement that I 
would like to submit for the record, which I prepared pursuant 
to the direction----
    Mr. Hansen. Without objection.
    Mr. Frampton. [continuing] in a letter which we received 
last Wednesday, which asked me to state something about my 
background and priorities for CEQ. I have attempted to prepare 
myself as best I could, over the last few days, for questions 
that I thought that members of the Committee might have for me; 
but, since the scope of the hearing is pretty broad, I hope you 
will indulge me, if there are issues that I am not adequately 
prepared on, the opportunity to get back to you, in writing or 
in some other fashion, on some of the questions you may have.
    Rather than summarize my opening statement, I thought I 
would just say, very briefly, what I perceive to be probably 
the two greatest challenges for CEQ, looking forward. The first 
has to do with coordinating not only the work of Federal 
agencies, but building partnerships between Federal agencies 
and State and local governments, and other stakeholders. And 
the second has to do with the process with which we make 
important environmental decisions.
    Almost all the major issues and problems that I worked on 
at the Interior Department involved not only two or three or 
four Federal departments or agencies, as Mr. Miller noted, but 
required partnerships with State and local governments, with 
private landowners, with non-profits, and with many other 
stakeholders. That was certainly true of the Everglades 
restoration program, which involved nine Federal agencies, 
three State agencies, the sugar industry, counties, cities, and 
many other parties. It was true, Mr. Chairman, as you know, of 
the Exxon-Valdez Oil Spill Trustee Council, which was a joint 
venture of the State and Federal Governments. It was true of 
the work that we did to try to make the Endangered Species Act 
work better, using habitat conservation plans in southern 
California, and other parts of the country, not just the 
Federal agencies, but State and local governments as well.
    In the few months that I have been in this position as 
Acting Chair of CEQ, I have found, even more than I did at 
Interior, that is what governors want; that is what county 
executives want; that is what mayors want; that is what the 
groups that represent regulated industries want. They want the 
Federal family to speak with one voice. They want the Federal 
Government to be together. And they want the Federal agencies 
to join in partnerships with State and local governments. So, I 
think that is really one of the two great challenges for CEQ, 
is to try to promote those kinds of partnerships.
    Mr. Chairman, in my opening statement I did not intend to 
say, and I don't believe that I did say, that I think that CEQ 
should create government policy. What I actually said in the 
statement was that we are trying to foster partnerships between 
those who do have the authority to create environmental policy 
and those who are affected by environmental policy. It seems to 
me that is becoming an increasingly important part of what CEQ 
is about, to try to forge partnerships. Because that's the only 
way to really get very much done these days.
    The second challenge that I think CEQ faces is to truly 
realize the original objectives of the National Environmental 
Policy Act, which were, first, to ensure that Federal agency 
decisions were made with balance; that individual agency 
biases, or agency programs, were remediated with other 
objectives, other agency programs, and that environmental 
objectives are weighed and balanced with economic and social 
imperatives, so decisions are made with balance.
    And, second, the decisions are made, in large part, through 
the process of preparation of an environmental impact statement 
or environmental assessment. Decisions are made based on good 
information, and with public participation. Basically, the 
National Environmental Policy Act is an attempt to democratize 
our environmental decisionmaking, to encourage Federal agencies 
to make decisions based on good information and public 
participation.
    So, those, it seems to me, are the real challenges that CEQ 
faces. We are not going to solve or meet those challenges 
overnight, but to try to build partnerships, and to try to make 
sure that Federal decisions are made in a democratic fashion 
with public participation, based on good information, those are 
the two lodestars that I think CEQ should be working towards.
    Having said that, Mr. Chairman, I would be happy to stop 
and happy to take any questions that members of the Committee 
may have.
    [The prepared statement of Mr. Frampton may be found at the 
end of the hearing.]
    Mr. Hansen. Thank you, Mr. Frampton. We appreciate your 
comments. I will recognize members for five minutes each. We 
will start with the gentleman from Alaska, Mr. Young.
    Mr. Young. Mr. Frampton, I have heard some rumors that the 
Tongass Land Management Plan, TLMP, which just went final in 
May of 1997, is about to be changed again very soon. I have 
also heard that you, and others at the CEQ, are involved in 
changing it; that the change will, again, decrease the amount 
of timber allowed to be harvested this time by one-third of the 
amount that was specifically set in the TLMP process. My 
question is: Are you, or anyone in CEQ, involved in modifying, 
or supporting modification, of the Tongass plan?
    Mr. Frampton. Mr. Chairman, the answer to that, to the best 
of my knowledge, is no. I certainly am not, and very 
intentionally so. The final Tongass Land Management Plan had 
been subject, as you know, to many appeals. It is my 
understanding that those appeals are going to be resolved, and 
a final plan, or resolution of the appeals, published in the 
next day or two. But, I have stayed, as an administrative 
appeal in the Department of Agriculture, I have very 
consciously stayed away, both from the process and any 
knowledge of what the final shape of the plan in going to be, 
or any details of the plan. In fact, over the last few weeks it 
has seemed to me that there are a lot of people on the streets 
in Alaska and Washington that seem to know a lot about this. I 
am not one of them. I have not been briefed on the final 
decision, if it has been made, and I have not participated in 
it.
     The question, again, following up, is that the Tongass 
plan was done underneath NEPA and the National Forest 
Management Act; is that correct?
    Mr. Frampton. Well, NEPA certainly applies to the planning 
process, but the appeals that have been taken----
    Mr. Young. Those two agencies are the ones that drew this 
plan up?
    Mr. Frampton. Well, the U.S. Forest Service is 
responsible----
    Mr. Young. And under NEPA.
    Mr. Frampton. Under the Forest Management Act.
    Mr. Young. Now, here is what I am getting into: Can you 
assure me or the Committee today that no significant amendment 
of the Tongass plan will occur without the public involvement 
required by NEPA?
    Mr. Frampton. Mr. Chairman, we have had years and years of 
public involvement with the NEPA process and plan, and final 
appeals are pursuant to law.
    Mr. Young. Don't dance around me now. Under NEPA, there has 
to be public involvement. There has been public involvement, 
and the plan has been issued. Now, I had just heard today that, 
on behalf of CEQ, that there is a move afoot to change the plan 
without any public involvement.
    Mr. Frampton. Well, Mr. Chairman, the National Forest 
Management Act--you are testing my knowledge of the Act--
provides for administrative appeals to the Chief of the Forest 
Service. Those appeals have been taken, and my understanding is 
that the Agriculture Department is about to resolve those 
appeals pursuant to the National Management Act's processes.
    Mr. Young. But you said in your statement that the purpose 
of your agency is to work out problems. Now, if the Forest 
Service decides to settle the TLMP appeals by amending the 
plan, without any public input, don't you think that would be 
breaking the intent of NEPA?
    Mr. Frampton. Well, I don't think that it would be 
appropriate for CEQ to intervene in that quasi-administrative 
appeals process within the Department of Agriculture.
    Mr. Young. All right, so you----
    Mr. Frampton. I don't think NEPA is intended to apply to 
that process.
    Mr. Young. You can assure me now that CEQ, none of the 
people in your group, or yourself, have been involved in 
advising the Forest Service to amend or accept amendments that 
change the TLMP proposal?
    Mr. Frampton. As far as I know, no one at CEQ has been 
involved in that. And I can assure you that I, personally, have 
not been involved in any way in that appeal, or in advising 
anybody at the Forest Service about the substance, or 
direction, or resolution of that appeal, or any of the issues 
in the appeal. I have stayed way away from that.
    Mr. Young. Again, you are under oath, and I can say in your 
knowledge, but it is under your watch; and this is very dear to 
my southeast community. You have destroyed this community in 
this administration. We have no timber industry left. Mr. 
Miller helped do that, and he said he wouldn't let it happen. 
But it is dead. Now they are coming down with the 
recommendation of a very minimal cut, and if there has been a 
recommendation made by someone in your shop to the Forest 
Service to accept the appeal and cut down by one-third what the 
remaining little amount that was going to be offered, without 
public input, or the effect upon the economy and the 
environment, I think it would be a great disservice to 
yourself, this administration, and the whole process. It means 
that you are not following--the process is not being followed.
    Now, this may be all rumors. But, most of my rumors are 
pretty correct when it comes to these issue. So, I am hoping 
that everything you have told me here today is on the up-and-
up, because we will follow this paper trail. And we do have a 
confirmation hearing coming up; and if you think that I don't 
have that hearing privilege, my Senators do, but they will be 
quite interested, because they are quite interested in this 
issue.
    My time has run out, Mr. Chairman.
    Mr. Hansen. The gentleman from California, Mr. Miller.
    Mr. Miller. At the risk of dipping my toe in a----
    Mr. Young. I would suggest you don't do it.
    Mr. Miller. I just want to ask a technical question, just 
so we are clear because I am a little bit confused. My 
understanding is, on the Tongass, they went through a public 
process; they came out with a plan, and the plan is on appeal 
to the Chief, right? And he will make a decision to the 
Secretary, and that will be that, right? And that can be 
litigated if somebody--but the public process was at the front 
end, when all of this was----
    Mr. Young. What I am looking for, Mr. Miller, is, if I find 
out the CEQ or any staff members are involved in this issue, 
recommending to the Chief that they decrease the original 
amount of timber, that goes back to setting policy, and I am 
saying that is incorrect, because we are supposed to go through 
NEPA and the Forest Service Management Group, and that is what 
has cost us $18 million.
    Mr. Miller. Excuse me. I was misunderstanding. I thought it 
was suggesting that somehow the front-end public process was 
not done.
    Mr. Young. No, no, no.
    Mr. Miller. Okay.
    Mr. Young. But the rear end, which we will be looking at, 
if they decrease the amount of timber, we don't have anything 
left. We have millions of acres of trees and we don't have 
enough to take and even cut toothpicks anymore.
    Mr. Miller. Thank you, and let me just ask a couple of 
questions. I guess, because I come at this from a different 
direction, my experience in a number of issues has been that 
the CEQ has been rather helpful in holding together large, 
complex problems and the resolution of those problems. You 
mentioned getting the Federal Government to speak with one 
voice here, and that's what local entities want. And I think 
that's clear.
    We went through, and you were helpful, as I said, on 
holding the CALFED process together. But, it seems to me that 
these are really the processes by which we have the best chance 
to succeed. On some of these issues we either go timber sale by 
timber sale in the Sierras, and litigate everything, and end up 
doing nothing for a decade, or we can try to resolve it on a 
much larger scale with respect to the forest, and have a policy 
that everybody knows they can live by and work within, and 
adjust their activities accordingly. And it seems to me, that's 
true in the Everglades, the Headwaters; we could have litigated 
every piece of timber in the Headwaters, or we could have 
worked out a problem there that--for the moment I'm not a great 
champion at that one, but it seems to me that it may very well 
work, with respect to both the environmental community, the 
local communities, the business that was involved in the State 
legislature, and the State Office of Forestry seeming to go 
along with that resolution.
    If anything, I would think that we would want to try to 
improve the status of CEQ to help bring these things to 
closure, and to get the Federal Government to speak with one 
voice, but how do you do that? You are operating on a pretty 
small budget compared to the people you are supposed to be 
bringing into the room to get to talk and to work these things 
out. How are you going to be able to continue to do that? I 
mean, some of these are really large, statewide problems. There 
is no question about----
    Mr. Frampton. Well, Mr. Miller, we have got to work harder. 
I appreciate your perception of this. I think that it is 
certainly the perception as well, for example, of the Western 
Governors. When I went out the first week I was in this job, to 
the Western Governors' Association meeting, where I have been 
almost every year in November in Phoenix, a lot of the western 
governors, Democrats and Republicans, made the point that CEQ 
is really the only place they can come to to make sure that 
some of these major interagency projects are on track. And they 
were surprised that CEQ has so few resources, so few people.
    This is an agency that now has half as many staff, or 60 
percent as many staff, as it did at the end of the Bush 
Administration. But I think the key is, it is a delicate 
balance. We are not trying to be environmental czars; we can't 
do that. We are not trying to direct programs. We are trying to 
foster cooperative partnerships and relationships between, and 
help, people who have the lead responsibility in different 
Federal agencies, work together, and cajole them, or encourage 
them, or help them work with State and local governments. But 
it is very often a process of herding cats. But that is all we 
can do; we do our best, under the existing structure of laws 
and statutes. We are a facilitator and a catalyzer, not a horse 
driver or a czar.
    Mr. Miller. Thank you.
    Mr. Hansen. The gentleman from Pennsylvania, Mr. Peterson.
    Mr. Peterson. Good afternoon and welcome. I come from the 
East, Pennsylvania. But, as I was reviewing the role you will 
play in your new position--I am fairly new in Congress--but, 
there were many who felt your predecessor, instead of playing 
the role of bringing people together with an agenda, that was 
the perception--how can you assure us that you won't play that 
role that way?
    Mr. Frampton. Congressman, I think it is possible to lead 
and to bring people together. I guess all I can say to you is 
that, I spent four years at the Department of Interior as an 
Assistant Secretary. I pretty much put together and led the 
Everglades restoration effort, restoring Prince William Sound, 
did a lot of work on CALFED, the Northwest Forest Plan, trying 
to really change the way the Endangered Species Act is 
administered, so that it becomes a tool that State and local 
governments can use, that private landowners can use to gain 
some certainty, as well as some habitat protection. I think the 
things that I did there involve both some leadership and some 
consensus, and that is basically what I have to go on.
    I am not saying, ``Trust me.'' I am saying, ``Look at what 
I did for four years,'' and that is what I hope to do at CEQ. 
And I think that is what works; that is what makes for success.
    Mr. Peterson. Well, I know, speaking about my own career, I 
was in local government for a number of years. I was a 
businessman for the bulk of my life, but I was in local 
government for eight years, and when I became chairman of a 
local government, I changed how I operated. I became a 
listener. I made everybody contribute. I made them function a 
lot more than some of them wanted to function, and I took a 
lower role than when I was challenging the current leadership, 
before I became the chairman.
    Not everybody gave that perspective, but I think the design 
of this organization can be very helpful in bringing people 
together in this country. But, if the people perceive that 
those who are running it are running an agenda, it will have 
the opposite effect. And I think, correct or incorrect, fair or 
unfair, your predecessor had the perception of driving the 
train.
    An issue I will switch to is the global climate issue. 
Would you share with us a little bit of your thoughts about 
that; what your role is in the global climate issue?
    Mr. Frampton. You know, I think that it has been a very 
consistent hallmark of this administration's environmental 
policy overall to try to show that we can combine strong 
environmental protection with good economics. I would just say 
to you that the record of the last six years is a pretty good 
record on that, proving that it can be done. Maybe we have 
gotten lucky in some aspects, but those two things can work 
together.
    I think the climate change policy that the administration 
has put forward is very consistent with that. The President has 
basically said, look, this is a terribly important issue for 
our future. We are operating under a treaty that has been 
submitted to the Senate, and ratified unanimously, by the Bush 
Administration, the Framework Convention on Climate Change, 
which obligates us to take some measures to try to stabilize 
and reduce greenhouse gases. While we have signed the Kyoto 
Protocol, the President has committed to a five-year plan of 
trying to do the things that the Framework Convention calls 
for, basically, voluntarily--trying to encourage through 
incentives, through economic investments, encourage the private 
sector to make the kind of investments that will both make 
companies more efficient and clean up the air, and reduce 
greenhouse gases. So, our climate change technology 
initiatives, trying to fund renewables and efficiency, 
proposals for tax credits, this year a proposal for a clean air 
fund that would help State and local governments, help small 
businesses invest in new technology, those are the principal 
elements of the program that is designed to see whether it is 
possible to facilitate the private sector both becoming more 
efficient and making progress on greenhouse gas reduction. That 
is the current framework of the administration's position.
    Mr. Peterson. Bringing that back to the timber issue, there 
are recent studies that show that in the Northeast, where we 
have continued to cut timber, and have a regenerating, younger 
forest, that the greenhouse gasses are less when they leave the 
forest to the Northeast and hit the ocean, than they were when 
they came into the Northeast from the West. So, a young, 
growing, vibrant forest is a whole lot better for clean air 
than an old dying forest, which is the goal of many who want 
all of our forests preserved, I guess to look at. I would like 
to have you react to that proposal, that a young, growing 
forest that is cut and pruned properly is good for clean air 
much more than it has been given credit for.
    Mr. Frampton. Well, I am glad you asked me that question 
because it gives me an opportunity to make a pitch. This 
administration has really stuck its neck out in trying to 
promote the concept that sinks, forests, and better farmland 
practices can make a major contribution to the global warming 
problem, the climate change problem. We are sponsoring 
workshops and seminars, and trying to promote the international 
science that will show that forest enhancement, and different 
kinds of tillage practices, will actually capture carbon, and 
will help us meet our overall goals of greenhouse gas 
reduction.
    But, I have to tell you that, the science on this needs a 
lot of work. If we are going to sell our international partners 
on how important it is to use sinks in this country and 
elsewhere--and American agriculture can benefit tremendously 
from this--we need more money for scientific research to 
undergird that point of view. But the administration has been 
very aggressive----
    Mr. Hansen. The time of the gentleman has expired.
    Mr. Peterson. Can I just say one thing? If the money was 
earmarked for that, I don't think you would have much argument. 
I mean, I think a lot of the money that has been asked for, it 
has been very nebulous on what it is going to be used for. 
There is a lot of suspicion, and I think if you had money 
earmarked for that key issue, I think there would be a lot of 
support here.
    Mr. Frampton. Thank you. We do, in fact.
    Mr. Hansen. I am trying to take people in the order in 
which they arrive, and I am not sure I have got it all 
straight, but the next one would be the gentleman from 
Minnesota, Mr. Vento, and he would be followed by the 
gentlelady from Idaho, Mrs. Chenoweth. Mr. Vento.
    Mr. Vento. Yes, thanks, Mr. Chairman.
    Mr. Frampton, Chairman Designate, I think one of the 
problems here is that early in the administration there was an 
effort to try and establish an Office of Environmental Council, 
as I recall. Of course, the designated Chairman of the Council 
on Environmental Quality was going to assume that position, Ms. 
McGinty at that time. There was a reaction in Congress; that 
is, they wanted to preserve the Council on Environmental 
Quality--apparently, so they could cut it by one-third in terms 
of funding--but, I mean, the issue was that there was a concern 
that would draw this in too close to the administration; it 
would lose some of the membership, I guess. How many members 
are on the Council on Environmental Quality?
    Mr. Frampton. Well, under the statute, there are three 
authorized members of the Council, but for the past 10 years or 
so, the Congress has vested all the authority in a single 
member as a Chair, and there are about 19 staff members.
    Mr. Vento. So, it is then down to about a third of what it 
was; it was actually about 30-some members; now there are 23. 
But, that has not stopped the effort to try and deal with 
things.
    I was looking at the CEQ. Of course, one of the issues that 
they involved themselves with in the early years was to, 
apparently, provide technical assistance in terms of response 
to agencies, departments, States, and others, that would make a 
determination as to what they needed to do under NEPA--had to 
do an EIS or an EA--is that correct?
    Mr. Frampton. That is correct, and we still do.
    Mr. Vento. That is a considerable amount of work that goes 
on. But it seems to me that as we follow this process--for 
instance, the Forest Service, which seems to be the object of 
attention today, has really learned pretty well how to do EIS's 
and EA's, and make judgments. Obviously, if they make the wrong 
judgment and do an EIS and they are supposed to do an EA, they 
may end up in court. But, they are pretty much able to do 
those, and get a pretty good turnaround time, in most of that 
activity, in my judgment, in terms of what they are doing. 
Would you agree, Mr. Frampton?
    Mr. Frampton. Well, I think the agencies are doing a much 
better job than they did a few years ago, but I think we have a 
ways to go. We are constantly trying to reinvent NEPA. We are 
constantly trying to pare down----
    Mr. Vento. Very often, I think this law, especially the 
EIS's and NEPA, is in the position of delivering some 
information or some answers people do not want to hear. I can 
recall very well, Mr. Chairman and others, working on the old 
growth issue in the Pacific Northwest, and we kept getting back 
answers, and the answers were: ``We have got to cut less.'' 
Because that's what the science, that's what the information 
dictated. And that ended up being very contentious, I think, 
because of that; that was my judgment.
    But, as I look at the list of projects that you have--I 
could go through them; issues like environmental justice, the 
American Heritage Rivers Program, other programs--most of 
these, though, how would you characterize it? They are really 
efforts to try to coordinate the various Federal agencies to 
get their act together between the various departments and 
agencies, and, in a sense, you are proposing, in other words, 
that the Congress develop new laws, new policies; that's part 
of your role, too, isn't it?
    Mr. Frampton. Well, certainly, statutorially, it is part of 
the function of CEQ, assigned by Congress, to advise the 
President on the development of environmental policy, and that 
would include new statutes. I have to say, though, that in 
recent years, probably, as Congressman Miller mentioned, the 
bulk of CEQ's work has been trying to figure out how to make 
existing laws work better, and help the agencies that have 
responsibility for administering those laws do that.
    Mr. Vento. One of those problems is, for instance, we are 
now involved with this consultation with regard to the West 
Coast salmon in Washington and Oregon. Do you want to comment 
about your role in that, as compared, for instance, to the 
problems we had with the old growth in the Pacific Northwest?
    Mr. Frampton. Well, there are two aspects to that. The 
coastal salmon runs in Washington, Oregon, and California, most 
of which have now been listed as threatened or endangered under 
the Endangered Species Act, are the subject of a proposal in 
the President's Fiscal Year 2000 budget that was requested by 
four governors, actually. The governors of California, Oregon, 
Washington, and Alaska wrote to the President, the Vice 
President, and asked that the administration request from 
Congress a salmon restoration fund, that would go through the 
governors, to work on those issues----
    Mr. Vento. And so, that is in the budget, isn't it? It is 
$100 million?
    Mr. Frampton. It is $100 million proposal----
    Mr. Vento. When you spoke to the Western Governors, 
recently, what did they ask you for? You made your 
presentation. What did they tell you they need?
    Mr. Frampton. Well, the West Coast governors originally 
asked for $200 million a year for six years, and they asked 
that CEQ actually coordinate that work, but that the money go 
through the governors, so there would be a minimum of 
paperwork. But, this is going to be a State and local program.
    In fact, I think that you see the difference between the 
old growth controversy and the coastal salmon issues by a press 
conference that was held a couple of weeks ago, by the governor 
of Washington and Mr. Ruckelshous. The Federal officials were 
there, the chief executive of Boeing, Microsoft, dozens of 
companies of the Puget Sound area, joining with the King County 
executives, tri-county mayors, the governor, saying, ``We all 
have to get together and fulfill this job. We welcome funding 
from the Federal Government, and we welcome some Federal 
involvement, but we want to do it ourselves, and we are going 
to do it.''
    Mr. Vento. The point I was trying to make is that the 
Western Governors, when you spoke to them, asked you to expand, 
actually, the Council, is that right, on Environmental Quality?
    Mr. Frampton. That is correct.
    Mr. Vento. In other words, they want more of this, not less 
of it?
    Mr. Frampton. That is correct.
    Mr. Hansen. The gentlelady from Idaho, Mrs. Chenoweth. She 
will be followed by the gentleman from New Mexico, Mr. Udall.
    Mrs. Chenoweth. Thank you, Mr. Chairman.
    Mr. Frampton, I know that you agree that catastrophic 
events such as windstorms and wildfires, or severe insect or 
disease epidemics, often require the swift implementation of 
management activities to further avert more environmental 
degradation. But, unfortunately, our frustration--I know your 
frustration, too--is that the legal and regulatory requirements 
or plain, old, bureaucratic red tape often prevent those 
activities from taking place in a timely manner, or even at 
all.
    But, there was a bright line drawn by Ms. McGinty last 
time, where provisions exist in the law, but are rarely used, 
and she used them. That allowed for an expedited process to 
occur; in particular, it is under alternative arrangements 
underneath us. Ms. McGinty implemented that immediately 
following a severe windstorm in a national forest in Texas. 
They applied for, and received, permission from the 
administration, to use the alternative arrangements for the 
removal of the blown-down trees, in order to reduce the impacts 
of further insect infestations and degradation of the resource.
    Apparently, Mr. Frampton, with the windstorm occurring in 
February of 1998, it only took four months for the process to 
work as it had been envisioned originally by the Congress, and 
it was a remarkably admirable, effective program that she put 
into place.
    I have drafted legislation that lists a number of forests 
that have experienced catastrophic events, really, that are in 
similar magnitude to those in Texas. In fact, we heard in 
testimony before the Forest Health Subcommittee that a lot of 
our national forests are in a state of mere collapse. For 
example, in Idaho, in the Panhandle National Forest, 150,000 
acres are experiencing a real disastrous outbreak of the 
Douglas fir bark beetle, and to contain this infestation on 
Federal land, so it won't spread to State and private lands, 
and to prevent further catastrophic fires, are you willing to 
work with the Forest Service, especially where there are 
regional catastrophic conditions, to see the alternative 
arrangements implemented?
    I do want to say that there was a 4,000-acre variance 
granted that exempts them from appeal or from stay under 
appeal, but that is only 4,000 acres out of 150,000 acres that 
are really in bad shape.
    I wanted to know what your thinking was on a NEPA parity 
program where you could help us go in and remedy some of these 
situations.
    Mr. Frampton. Congresswoman Chenoweth, I appreciate your 
kind words and your confidence in the process, that the process 
can work, and I tried over the weekend to familiarize myself a 
little bit with this and with your bill, because I was told you 
might ask about it.
    I am glad that you believe that the emergency provisions in 
NEPA do work, can work and do work, and I think they have been 
used 30 or 31 or 32 times fairly successfully, but they do 
provide that the agency asks. It is the land management agency 
or the transportation agency or whatever agency finds that 
there is an emergency, and they need not to escape from under 
NEPA, but to find ways to deal with their NEPA problems in an 
emergency, and CEQ responds flexibly; at least has in the past.
    I think the issue with the bill, which I assume is your 
bill you are asking me about, which was opposed, I guess, last 
year by the Forest Service and BLM--and I appreciate that you 
have made some changes, I understand, this year--the problem 
with that is that it doesn't turn on the agency asking for a 
shortcut or alternative arrangements. So it would have CEQ 
telling the agency, in the case of these 10 areas, you know, 
where there is a forest health issue, you have got to consider 
this to be an emergency, and we want to give you emergency 
powers, and we want you to go in there and cut.
    It seems to me that sort of thing is just exactly what 
Chairman Hansen was talking about when he criticized CEQ for 
possibly wanting to create. That is a top-down; that is 
creating environmental policy.
    So it seems to me that while the emergency provisions are 
important, and I am certainly willing to use them--we have used 
them from forest fires and fish hatchery disease and foreign 
conflicts--that it really ought to be at the initiation of the 
land management agency to find the emergency. What, ultimately, 
you have here in these areas is a disagreement with the land 
management agencies about how these lands should be managed, 
and that is not the kind of thing, it seems to me, that CEQ 
should get in the middle of.
    Mrs. Chenoweth. Mr. Chairman, I just want to say I think 
Mr. Frampton's comments are very accurate and very thoughtful. 
The only difference is that it is the Congress that is finding 
and the Congress that is asking. So I hope that I can work with 
you on it, and that your comfort level will be met.
    Mr. Frampton. I would be delighted to talk to you further 
about it.
    Mrs. Chenoweth. Thank you very much.
    Mr. Frampton. And I accept your point that it is not CEQ; 
it is the Congress, through CEQ, directing the agencies to take 
this point of view.
    Mrs. Chenoweth. I would like to work with you on it. Thank 
you.
    Mr. Hansen. Thank you. I now recognize the gentleman from 
New Mexico, Mr. Udall. He will be followed by the gentleman 
from Idaho, Mr. Simpson.
    Mr. Udall of New Mexico. Thank you very much, Mr. Chairman.
    Mr. Frampton, it is good to see you here today. Welcome, 
and let me say that I believe we are very lucky to have 
somebody of your caliber to serve at CEQ, and I hope that very 
quickly you can assume other than acting responsibility.
    Let me ask you about NEPA and all the processes that the 
Federal Government goes through. In any given year, it seems to 
me that Federal agencies prepare approximately 500 EIS's and 
50,000 environmental assessments, and knowing that with the 
smaller forces these other members have pointed out, the 
smaller force that you have, I was wondering, what have you 
done in order to really define and set current priorities with 
the limited resources you have? I mean, what is it that you 
really end up focusing on?
    Mr. Frampton. Well, I think that over the years we have 
tried to, through guidance, workshops, training, seeing to it 
that career people who are responsible in the agencies for 
administering NEPA, you know, get more capable--and so we are 
relying a great deal on the agencies, obviously, to do their 
own NEPA work.
    I think the focus of CEQ is perhaps turned to simply trying 
to solve or monitor the major disputes or problems between 
Federal agencies. That is a big part of our caseload, if I can 
put it that way. Probably the single most fastest-growing part 
of CEQ's work is responding to requests from Members of 
Congress to solve problems where somebody is caught between two 
Federal agencies or a Federal-State conflict of some kind. We 
can't handle effectively, I don't think, anywhere near all of 
those requests, and they keep growing every year.
    The real challenge is to try to see whether there is any 
time left over to think about helping steer the big projects, 
the big initiatives, CALFED, Everglades, changing ideas about 
ecosystem management, but we don't have a lot of time left over 
for what was, I guess, the original, I would say an original 
sort of No. 1 priority of CEQ, which was to look ahead and 
shape environmental policy, because we have too many important 
priorities and too many programs that are going forward and 
need to be kept on track.
    So right now it is very much a problem-solving 
organization, and that is a big part of our agenda right now.
    Mr. Udall of New Mexico. It sounds like that you could use 
additional personnel to deal with some of the big picture 
environmental issues, the Everglades, Prince William Sound 
cleanup, and all of those kinds of things; that you could then 
shift from some of what you just described to some of the more 
national big issues where you have--another good example, I 
guess, is the salmon up in the Northwest, where you have 
counties and cities and the Federal Government and States all 
having responsibility.
    Mr. Frampton. Well, the one thing that we have asked for, 
for a little bit of additional money in our appropriations this 
year, is to work more on State-Federal partnerships with 
Federal Government. I mean, that is really the most crying need 
we have. I don't know whether the Appropriations Committee will 
see fit to give us any resources to do that, but I hope so.
    Mr. Udall of New Mexico. Thank you very much. I yield back 
the balance of my time.
    Mr. Hansen. The gentleman from Idaho.
    Mr. Simpson. Thank you, Mr. Chairman
    Mr. Frampton, I appreciate your being here today to answer 
these questions, and I don't have a lot of specific questions 
yet. Coming from Idaho and the Pacific Northwest and the issues 
that are significant up there that were just mentioned, dealing 
with salmon and particularly the States of Washington, Oregon, 
and Idaho, Montana, and the difficulties that we have had 
trying to get to address the policy of what we are going to do 
about salmon in the Pacific Northwest, how it is going to 
affect our economy, and in some instances how it is going to 
devastate our economy, if certain decisions are made relative 
to salmon?
    Tell me your view on how we are going to address that 
salmon issue up there, how we are going to resolve this at some 
point, so that we can move forward and have a logical 
environmental policy, and we can also rely on a forest policy 
that we will have some timber to cut. We don't have any timber 
in Idaho any more to cut. We have pretty much eliminated 
cutting timber off of national forests in Idaho. Jobs in small 
communities, the jobs are leaving this State, the State of 
Idaho, and now we are looking at the agricultural industry and 
the mining industry. A natural resource State like Idaho is 
pretty soon going to become jobless if we don't quickly resolve 
this issue with salmon, and it seems to be driving the whole 
economy of the Pacific Northwest.
    Mr. Frampton. Well, it is a pretty broad question, 
Congressman.
    Mr. Simpson. Real broad.
    Mr. Frampton. I guess I would say that, whether it is the 
coastal salmon restoration effort or the Columbia and Snake 
River runs or the issue of protecting salmon habitat on the 
east side and the Columbia Basin, that there are processes 
going on in each case that are not by any means exclusively 
Federal processes. They involve States and counties, and 
Bonneville Power in the case of the Columbia River. In each 
case I think we have to make good science and good economics 
and implementability of a strategy, the key criteria for moving 
forward.
    Mr. Simpson. You know what, let me just state this: What 
kind of bothers me, and I am coming to the conclusion, after 
having tried to deal with this in the State legislature for a 
number of years, is that salmon isn't the issue any more. 
Salmon are used as the excuse to try to control certain 
activities on the lands, whether they are forest practices or 
mining practices or other things.
    I have seen instances where--in the Blackbird Mine, where 
they have required environmental impact statements to see the 
impact on salmon habitat in the area, and they found out, 
through historical studies, salmon never entered above Napeus 
Falls, and so forth. And then they were sued and decided they 
had better go back and redo the environmental impact statement, 
and decided that, you know, salmon might have been able to fly 
at one time and could have gone up these falls. It is costing 
these mining industries and these mining companies where 
anymore they just want to shut them down.
    I have got some real concerns about that because I want to 
save salmon as much as anybody else does, but it seems like we 
are using salmon to try to drive other polices, rather than 
saving salmon.
    Mr. Frampton. Well, certainly the salmon issue is broader 
than the fish alone. It involves the priority and the strategy 
that the State is going to give to clean water and protection 
of riparian areas. Obviously, in the case of commercial and 
sportfishing and tribal fishing, it involves, you know, 
important economic sectors, certainly in Washington and Oregon 
and northern California, and tribal treaty rights.
    So it isn't just the fish and it isn't just listed fish 
under the Endangered Species Act. These are societal problems, 
and they have to be approached, it seems to me, in that way. 
Right now, you know, I think these are some of the hardest 
problems in the country and they are not going to be easy; 
there aren't going to be any easy choices when it comes to 
salmon; no easy choices.
    Mr. Simpson. Well, I appreciate your comments, and there 
are going to be no easy choices. I am willing to work on it, 
and I look forward to working with you to try to resolve this 
issue, because it is provides the most uncertainty in the 
Pacific Northwest for businesses that want to locate there or 
people that want to do business, natural resource businesses in 
the State of Idaho. We have got to resolve this uncertainty 
about what is going to happen in the future.
    Mr. Frampton. Thank you.
    Mr. Hansen. The gentleman from Wisconsin, Mr. Kind.
    Mr. Kind. Thank you, Mr. Chairman.
    Thank you, Mr. Frampton, for your attendance and testimony 
here today.
    I just had lunch with my former Senator and former governor 
from Wisconsin, and also the founder of Earth Day, Senator 
Gaylord Nelson, and he and I just want to thank CEQ's role in 
the involvement and planning and preparation of Earth Day 
celebrations and staging of Earth Day celebrations. Obviously, 
we are very proud of that recognition, given Senator Gaylord 
Nelson's leadership and role that he has had in it, and we 
appreciate all of your assistance.
    I have got to run to another meeting in a little bit, but I 
want to, first, to blindside you on a question but first extend 
an invitation to you. I am one of founding co-chairs of the 
Mississippi River Task Force, and early on in the work that we 
are doing to highlight issues affecting the Mississippi and the 
watershed area there--there is a whole lot of programs at all 
kinds of different levels, but one thing is perfectly clear, is 
there is very little coordination of what is happening at the 
Federal, State, and local level. We need to be able to develop 
some type of coordinating mechanism, not only between 
governmental agencies at the Federal, State, and local level, 
but the private and public partnership, and what ultimately has 
to be done in order to preserve and protect this vital natural 
resource. I would extend an invitation for us to get together, 
and maybe a couple of other members of the task force, just to 
get together and brainstorm a little bit about it.
    We have had a lot of meetings with State officials already, 
and with the Corps of Engineers in particular, and what we are 
hoping is to develop to some type of long-term vision of the 
Mississippi, given the hypoxia problems that exist now in the 
Gulf of Mexico and all unique challenges that we face in middle 
America, something along the Chesapeake Bay Initiative or even 
the Everglades Initiative that you have been deeply involved 
with, but maybe we can set something like that up sometime in 
the near future.
    Mr. Frampton. Thank you. I would like to do that. I have to 
say that, if I could come anywhere near the standards set by 
Gaylord Nelson, I would be very proud. I mean, I think he 
taught me something that I never even learned many years as a 
lawyer, as an advocate. You know, everybody always knew where 
Gaylord was coming from. He was an advocate, and he never made 
any apologies about being an advocate. I have always been an 
advocate, too. Before I ever went to the Wilderness Society, I 
was an advocate.
    But what Gaylord taught me was how: Be confident about what 
you are advocating and don't ever advocate anything personally. 
Don't rupture your personal relationships. Respect the views of 
people on the other side, because you are going to have to work 
with them next week, the next month, the next year, and be open 
about your positions and stay in the process. I think he was 
very successful and very admired, and rightfully so, and he is 
a great man.
    Mr. Kind. Yes, I think there was a whole lot of lessons for 
many of us to learn, and he has been a real role model for me 
in the conduct of my official duties.
    Now the blindside question: There is a lot of interest----
    Mr. Frampton. I thought that was the last one.
    [Laughter.]
    Mr. Kind. There is a lot of interest in western Wisconsin, 
given the fact that my congressional district has more miles on 
the Mississippi than any other congressional district in the 
Nation, in regard to the American Heritage River Program. We 
have a lot of communities that are signed up to participate in 
it. I know CEQ has been very involved with the implementation 
of that program. Could you just take a minute or so and bring 
us up to date on your assessment of where that program is and 
where it is heading, because quite a few community leaders are 
getting antsy to get this off the ground?
    Mr. Frampton. Well, I am not familiar with that, your river 
segment, but, you know, I think that the program is moving 
forward slowly, but I have the impression that it is really a 
great program. I know that it caused controversy with some 
Members of Congress last year, and frankly, I can't imagine 
why, because a more benign, less Federal mandate, Federal 
money, Federal program I can just hardly imagine.
    This is really an effort to get local communities, catalyze 
local communities and local governments and businesses to 
envision a future and work together, and promise them, if they 
did that, we would, from the Federal side, try to coordinate a 
little bit what the Federal programs would be and help them 
find Federal resources of information. But all the energy is 
really coming from the local side.
    Now I know that some river segments are ahead of others. 
For example, I went to the signing, a month or two ago, of the 
first MOU for one of the American Heritage Rivers, the Rio 
Grande, and, boy, there were Members of Congress, mayors, 
businessmen. I mean there were hundreds of people there that 
came up to Washington for that, and they are doing fantastic 
things.
    I do think now we have gotten commitments for river 
navigators for every segment, and we are working on or close to 
finishing MOUs for every segment. But I know that some are 
further ahead than others. So I think we have some work to do, 
but I think it is a terrific program which basically is helping 
local people to work together and envision a better future.
    Mr. Kind. I would agree with that.
    Mr. Frampton. The problem is that we made a commitment, you 
know, no new Federal resources; no new Federal programs. So we 
are relying a lot on local energy, and it just takes a little 
bit of time.
    Mr. Kind. We will be in touch with your office and see if 
we can set up some meeting in the not-too-distant future. 
Thanks again for coming.
    Mr. Frampton. Thank you.
    Mr. Kind. Thank you, Mr. Chairman.
    Mr. Hansen. Thank you. The gentleman from Indiana, Mr. 
Souder.
    Mr. Souder. Thank you very much.
    As a brand-new member of the Committee, I have been sorting 
through a lot of these different issues, because in northeast 
Indiana I don't have a day-to-day interaction like those who 
have a lot of the parklands or other things. But, in listening 
to your statement and in reading it and in going through some 
of the background materials, I was intrigued by the fact you 
many times refer to this as team work and family, and that you 
are not a czar. I am not quite sure how you differ from, for 
example, Mr. Clark, the anti-terrorism czar or General 
McCaffrey, the drug czar. I don't know whether you are like 
Karinsky; you are not quite a czar. They have some line 
authority, but most of them don't have line authority.
    But the danger that many of us fear in an agency, when we 
start to put together these kind of quasi-czar-type things, is 
a mission creep, because you can almost justify, as Mr. Simpson 
was referring to about salmon, it can--this leads to this, and 
this leads to this. And when we see things like the livability 
agenda from Vice President Gore, somebody like myself, who has 
always been a right-wing Republican, but I have always been 
interested in environmental issues, and when I was in college a 
long time ago, pre-Earth Day, I went, as a conservative 
representative, to a number of environmental conferences, 
including one in Chicago, that was kind of the preliminary, 
which Senator Nelson was and Garett Harden and Paul Erlich, and 
many other people that helped launch that. One of the things 
that was very, very upsetting to me as a social conservative 
was the preoccupation with the overpopulation and the abortion 
issue, family planning, euthanasia issues, because almost every 
subgroup that I went to, they said, well, if there were less 
people, we could do this.
    One of my concerns in your mission creep is, can you assure 
me that one of the things that you are not going to get 
involved in are these extremely divisive issues of population 
control, particularly when you start looking at higher-density 
housing, mass transportation, and knowing that the Sierra Club 
has on its home page that they have been a long time involved 
in this, will you guarantee me that is not going to be part of 
the environmental agenda?
    Mr. Frampton. Well, I don't believe, to my knowledge, that 
CEQ is now, or has recently at least, been involved in 
population issues, and there is certainly no plan to in the 
future. I understand your question about mission creep, and I 
want to respond to that because I think, when you look back at 
the statute and the authorities and the charge to CEQ, 
statutory purposes of CEQ 1969-1970, that the Congress was 
remarkably prescient, because those activities are needed even 
more today than they were then. And I think CEQ has remained 
very true to its congressional charge.
    I think if there is a mission creep, it is not because of 
any accretion of power. It is because environmental issues and 
natural resource issues have become entwined with all the most 
important political and socioeconomic issues that we deal with 
today, everything the government is involved in, trade and 
foreign policy and economic strategy. So one or another of 
these issues come to CEQ at some point in a year or two years, 
inevitably. It is a function of what is happening in our 
society, not that CEQ is any more powerful or reaching out to 
seize any more issues than it did in 1971 or 1972.
    Mr. Souder. I understand the fundamental dilemma, and I 
want to zero-in on my question again because that very 
pressure, since in the environmental movement, from its 
origins, its heavy active origins, has focused on the 
population question as defining. You said that it hasn't. Are 
you committing that you won't?
    Mr. Frampton. Well, you know, I work for the President. I 
don't think I can make, in all honesty, a firm, ironclad 
commitment forever in the future that CEQ would not work on an 
issue that related to population, particularly if the Congress 
passed a statute that gave us authority or the President 
directed us to do that. But I am saying that we don't work on 
that issue now and there are no plans at CEQ; God knows we have 
more than enough to work on right now.
    Mr. Souder. I want to admit upfront that I am an 
occasionally paranoid conservative, and in going through your 
resume and your background, you worked for Justice Blackmun as 
he was preparing on the Roe v. Wade decision. Were you involved 
in that or in any of the abortion debate while you were at the 
Supreme Court?
    Mr. Frampton. I worked on the Roe v. Wade case as a law 
clerk, yes.
    Mr. Souder. And do you feel that that puts you in any 
position where you have been an advocate or more likely to push 
for something like this?
    Mr. Frampton. No.
    Mr. Souder. So you have never had any personal opinions? 
You merely clerked at that point? Have you ever written on the 
subject?
    Mr. Frampton. I have never written on the subject myself, 
but I think it is important to say for the record that, 
obviously, this case came before the Court, and I think I 
fulfilled my duty as a law clerk in working on the case, 
advising him, drafting, and so forth.
    Mr. Souder. Was that part of the reason he might have 
picked you for a clerk? Did he know that was pending? Was that 
any--I mean, I am not familiar with the process.
    Mr. Frampton. No.
    Mr. Souder. So you were there, you did your job, but you 
haven't had any activity on this issue when you were in your 
different other positions?
    Mr. Frampton. I have not personally worked on population 
issues in my career.
    Mr. Souder. Thank you very much.
    Mr. Hansen. Mr. Frampton, we don't want to hold you 
responsible for what other people did, and I know none of us 
appreciate that.
    Some time ago--in fact, in September of 1996--some of us 
from Utah got a little bent out of shape with CEQ, and as a 
matter of fact, my chief of staff, Nancy Blockinger, called 
Katie McGinty and asked her the question: We keep hearing 
rumors that there is going to be a designation of a monument. 
Yet, Governor Levitt doesn't know anything about it, and 
Senator Hatch, Senator Bennett. I didn't know anything about 
it, chairing the Committee on Public Lands and Parks. She said, 
``Oh, definitely, there is no plans that I am aware of. I don't 
know anything about it.'' Then, the next day, the President was 
standing on the south rim of the Grand Canyon and declares this 
a national monument.
    Now I am not saying that I was very familiar with the 
antiquities law, which gave him the right to do it. So we spent 
a lot of time looking at the 73 national monuments that had 
been created in the past, who created them, and why they 
created them.
    I found it very interesting that the Antiquities Act called 
for the President to designate an archaeological site, much 
like Rainbow Bridge National Monument, or an historic site, 
much like the Golden Spike, or a scientific site, as all other 
Presidents had up to this point. And then, the next sentence in 
the antiquities law says, ``And he shall use the smallest 
acreage available to protect that site.''
    In this instance, No. 1, the President did not disclose 
what it was that he was trying to protect. No. 2, he used 1.7 
million acres. And a lot of us would think he was really trying 
to get to Andalex and the coal mine at Smokey Hollow, because 
it appears that NEPA was going to come out and say that it was 
no significant impact after they finished EIS on it; that 
appeared what it would be. Well, as I said, I can't hold you 
responsible for that, nor would I want to.
    On the other side of the coin, we felt pretty bad about 
that procedure. So I subpoenaed the papers from CEQ, which were 
every reluctant to give them to us. And finally, we almost had 
to do a contempt of Congress before they got up here.
    Be that as it may, it was very revealing to us when we got 
those papers, and this Committee did a little pamphlet called, 
``Behind Closed Doors.'' And we were very distressed about 
that. And most of the people in the West and the Western Caucus 
and people on this Committee on both sides of the political 
aisle were so distressed about it that they passed legislation 
to limit the President to 50,000 acres. As you know, there are 
very few national monuments that exceed that; most of them are 
very small. In fact, the District of Columbia is only 38,000 
acres. That got bogged down over on the Senate side.
    Well, I would just like to ask you, very candidly, are you 
or the CEQ or is anyone planning any more national monuments? 
And if they are, where are they? And let us know about it.
    I honestly, as I read the Constitution, I feel that that is 
left to Congress to do those things, and personally I think the 
1906 antiquity law is an antiquated law, because at the time 
that it was passed, there was no Wilderness Act, no FLPMA, no 
1915 Organic Act; none of those laws were on the books. So I 
don't really see a reason for it being there, but possibly this 
is unfair, and if so, I certainly understand you telling me 
that you won't answer. But I would be curious to know.
    The reason I say that is Secretary Babbitt asked me about 
working with me on a national monument on the Arizona Strip. I 
hear the President is going to go out and start making some 
announcements.
    Are we going to get this thing again or what is going to 
happen? Could I, please, just pose that to you and hear your 
response?
    Mr. Frampton. I would be happy to respond to the question, 
Mr. Chairman. CEQ is not planning any national monument 
proposals, and the only one that is being planned or under 
consideration by anyone that I know of is the proposal that 
Secretary Babbitt announced. I know he has talked to members of 
the Arizona delegation, held some hearings. If he develops a 
proposal--and he said that he would like to submit that to 
Congress for legislation. If he were to submit it to the 
President as a possible national monument subject for 
proclamation, then it would come to the White House as his 
recommendation and the President would have to decide on that.
    Mr. Hansen. Excuse me, sir. Has a proclamation been issued?
    Mr. Frampton. Has a presidential proclamation been issued?
    Mr. Hansen. Has one been written, a presidential 
proclamation, to the best of your knowledge?
    Mr. Frampton. No, there is no proposal that has come to the 
White House or the President from Secretary Babbitt on this. In 
fact, he has said he is going to hold some more hearings, I 
think. My knowledge of this is mostly newspaper clips.
    Mr. Hansen. Well, much to the Secretary's credit, he has 
taken the time to talk to us about it, and of course, he was in 
Arizona recently holding a public hearing regarding this thing, 
which would basically be a monument on the Arizona Strip area.
    The one thing that kind of bothers me a little bit is I 
have fought with you folks--I don't know if that is the correct 
word, but we have had a few differences of opinion--on NEPA. 
Snow Basin is a classic example of that, which we did a land 
exchange. There are other examples. As you know, more 
legislation goes through the Committee on Parks and Lands than 
probably any other committee in Congress--a lot of little 
boundary changes.
    Whether it is the Interior Department or the Agriculture 
Department, they are always talking NEPA. However, they 
conveniently waived NEPA on the Grand Staircase Escalante, and 
we almost got the impression--again, I am not trying to hold 
you responsible and please don't take it that way--that if they 
like it, they waive NEPA, and if they don't like it, they use 
NEPA as the hammer to handle us on that.
    So I am assuming that, in the event that Secretary Babbitt 
and the delegation of Arizona--and we are concerned also, those 
of us in southern Utah--if we do another monument, will NEPA be 
followed on that or will there be a way to waive it this time?
    Mr. Frampton. Well, Mr. Chairman, I don't think NEPA was 
waived in the case of the Grand Staircase. I think that it was 
a presidential decision, and NEPA does not apply to 
presidential decisions. That is pretty well settled law. That 
is my understanding at least.
    Now I know that the issue of whether--or I believe the 
issue of whether there should have been some NEPA, additional 
NEPA activities there, may be still subject to litigation, but 
I think it is pretty well settled law that--and the Antiquities 
Act is a pretty unique presidential power, confers on the 
President a really unique presidential--singular presidential 
authority to do this, and NEPA doesn't apply to presidential 
decisions.
    Mr. Hansen. With the indulgence of my colleagues here--we 
have two more to hear from let me just ask a quickie here. Is 
CEQ involved in making an announcement on Earth Day, April 22nd 
of this year, with President Clinton and Vice President Gore or 
anyone else in the administration, regarding the environment, 
resource management, or preservation? If so, what is the nature 
of this announcement, and will Congress and this Committee be 
given notice before any announcement?
    Mr. Frampton. I hope we will be involved. I don't think any 
final decision has been made. A lot of other things are going 
on in the west wing these days. We would be delighted to give 
you some notice, when a decision is made.
    Mr. Hansen. All right, we do appreciate----
    Mr. Frampton. But I certainly hope the President and Vice 
President will get out there on Earth Day and do something 
attractive and productive.
    Mr. Hansen. Tell the folks to be careful of the Mall, will 
you? You know, the most important cleanup or the most 
exhaustive cleanup we have is Earth Day. You might bring two 
beavers along, says the gentleman from Minnesota. But, you 
know, it strikes me funny the people who believe in Earth Day 
make the biggest mess there is on the Mall.
    The gentleman from Oregon, Mr. Walden.
    Mr. Walden. Thank you, Mr. Chairman.
    Mr. Frampton, welcome. It is our first time to have a 
little discussion. I am probably one of the only members, if 
not the only member, on the Committee that actually has the 
Columbia River in his district, and so I am somewhat familiar 
with some of the issues.
    I was intrigued by your comment about being an advocate, an 
unabashed advocate, and I respect that. I don't know that that 
is what I want in your position, given some of the views of 
people in my district, given your past history, but I respect 
your honesty in talking about that advocacy.
    My question comes, or a couple of them: First of all, in 
NEPA, the role which you think social and economic interests 
play in consideration of various activities within the 
government--I have got to tell you, I am not real hopeful we 
are going to see, as my colleague from Idaho indicated, much 
help for our rural communities at this time probably for the 
next two years, and yet we have got enormous forest ecosystem 
problems with bug infestations, blow-downs. I know, in meeting 
with Forest Service officials, even they told me just this last 
week in Medford that they have to do a complete aquatic 
analysis under the Northwest Forest Plan to replace the planks 
on a lookout station, which seems a bit bizarre. They're going 
to send me that information.
    But it is those sorts of issues. I sometimes think the 
studies have gone a little outside of the bounds of common 
sense, but it is really the social economic component, I 
believe under NEPA, that is supposed to be considered. And I 
just wonder what weight they are given.
    Mr. Frampton. Well, I think that they are--I hope they are 
given appropriate weight. You asked specifically about an 
example under the Northwest Forest Plan. You know, when the 
Clinton Administration came here, there was, you could say, 
socioeconomic disaster in the forests of the Pacific Northwest 
on the west side, because courts had enjoined most of the 
forest management activities. I think that, looking back now 
four or five years, that the Northwest Forest Plan has been a 
model of integrating environmental protection and good science 
with socioeconomic factors.
    We have a stable timber harvest, and part of that was a 
Jobs in the Woods Program. In fact, one of the representatives 
of the carpenters came in to see me about a month and a half 
ago saying, ``We want CEQ to help us expand Jobs in the Woods 
on the east side, because the Labor Department and the Commerce 
Department, you know, they have their own specific interests, 
but you folks at CEQ see the big picture, and we think you are 
the place to come to help us sort of get something started 
here.''
    So that is the job of CEQ, to balance and integrate a full 
range of considerations, and I hope we do that. And if we don't 
do it, then we should get called on it.
    Mr. Walden. You know, I don't claim to be an expert on the 
Northwest Forest Plan, but I can tell you, when the cut has 
been reduced to what it is--I mean, it was projected to go down 
70 or 80 percent. Most of it is in some form of litigation 
anyway. There aren't many mills left. I don't think we ought to 
kid ourselves that the economy is rosy under the Northwest 
Forest Plan. There are enough other mitigating things that come 
in to basically shut it down. It is sure not the comment I get 
from those who are actually out there. In fact, timber sales 
that have gone through appeal in the Wynema have just been 
pulled back by Chief Dombeck, for reasons that I still am not 
sure of, that were offered and authorized under the Northwest 
Forest Act, and yet, he sort of wants under his new road list 
moratorium, and yet, they were offered; they were out there; 
they had gone through appeals and been approved, and yet, the 
Forest Service pulls it back. So I guess you have got some 
advocacy to do on me to convince me that has been a grand 
scheme.
    Let me get back to a question my colleague, Mr. Peterson, 
asked because I didn't really hear the answer. You talked about 
global warming and some of the initiatives of the 
administration, but I never really heard the answer about are 
healthy, green forests better than bug-infested, dying forests 
when it comes to improving the ozone layer and oxygen, and all?
    Mr. Frampton. Well, my answer was--and I didn't mean to be 
vague about it--that, unfortunately, we don't have the science 
to support a very good understanding of the answer to the 
question that he asked. I don't pretend to be an expert on 
this, but the fact of the matter is that what we are learning 
is that, what happens in the soil and what happens with an 
unhealthy forest staying in the condition that it is in, what 
happens in the soil and what happens underneath the soil may be 
more important than what happens above the ground.
    So we are learning all the time about the carbon 
characteristics of forest, things that we didn't know two years 
ago or five years ago, and I don't want to volunteer what would 
be--you know, somebody would hold me to be a scientifically-
accurate answer. I responded to the question by saying we want 
to use growing forests to help this problem. The timber 
industry, the agriculture industry in this country can benefit 
greatly from that, but if we are going to argue that in an 
international community we are going to need better science to 
do that----
    Mr. Walden. Mr. Chairman, could I ask just one more 
question? I know my time has run out.
    And that is, when it comes to your enforcement of NEPA and 
the other laws under your jurisdiction, do you intend to apply 
the same vigor and level of enforcement to those laws now that 
they are listings in the metropolitan areas--Seattle and 
Portland, for example--as have been applied to these laws in 
the rural communities?
    Mr. Frampton. Yes.
    Mr. Walden. Thank you.
    Mr. Hansen. The gentleman from Pennsylvania, Mr. Sherwood.
    Mr. Sherwood. Thank you, Mr. Chairman.
    We are going to beat this one to death, Mr. Frampton, but I 
was going to ask the same question as my friend Greg did, 
because I didn't understand your answer to John Peterson's 
question also.
    It is my understanding that the science is that a growing 
forest retains more water. It holds the water back and manages 
the water table better, and it absorbs more carbon; it provides 
more habitat for game, and it certainly grows better timber. As 
I see your management, and I look at the Allegheny National 
Forest in Pennsylvania and a few things, it seems to me like 
our timber policies are more preservationist than wise use. And 
I would like to get your comment on that.
    Mr. Frampton. Well, let me see if I can respond to the two 
questions. The first question, the original question that was 
asked of me had to do with whether a young, healthy, growing 
forest captures more carbon than, let's say, an unhealthy, bug-
infested forest where trees are falling down, and my answer to 
that question is that we really don't know enough, I don't know 
enough, I am not sure we know enough to give a definitive 
answer to that question.
    Three or four years ago people would have said yes. Now 
what we are learning is, if we take away the unhealthy forest, 
disturb the soil, that the total impact on carbon release there 
may far exceed the carbon capture over 20 or 30 years of a 
young growing forest. We don't know enough about that to know. 
And I didn't want to volunteer what someone would take perhaps 
to be a definitive answer to the question, and that is my 
honest answer. I am not sure that we know enough to know that.
    The second question you asked me really is a broader 
question about forest management, I guess, across the country. 
I don't think that our overall forest management policies for 
public forest are preservationist. I think what they are is 
designed to try to build in concepts of real sustainablity.
    Now one can disagree whether a lower timber harvest in the 
Pacific Northwest Plan is something that is good policy or bad 
policy, but it is sustainable and it will go on year after 
year, decade after decade, which was not a path we were on for 
the last 20 or 30 years.
    So I think our forest policies are really aimed at 
sustaining all the resources of the forest. Balance and 
sustainablity are really the key words of forest policy. I 
don't think they are preservationist-oriented, and I don't 
think they are wise-use-oriented, either.
    Mr. Sherwood. See, my experience is the eastern forest, and 
when you talk about disturbing the soil, that is usually how 
you get a new forest and that is how you get the acorn seed. We 
have very viable hardwood trees becoming over mature in the 
Allegheny National Forest because of the ban on cutting, and we 
also have market forces stripping the ground that is outside 
the forest, outside the Allegheny National Forest, because 
there is such a high demand now for the resource. I think our 
policy there is unwise in the context of the greater forest in 
the Northeast.
    But timber is a resource. In my opinion, it is a resource 
that we are very fortunate in this country to have, and I agree 
with sustainablity. Our forest turns over not very rapidly in 
the Northeast, but if it is carefully managed, it can be cut 
every 20 or 30 years very successfully. I just wanted to give 
you my opinion on that and get yours, and I think we don't 
totally disagree, but we don't totally agree either.
    Thank you.
    Mr. Hansen. The gentleman from Minnesota.
    Mr. Vento. Mr. Chairman, on Mr. Sherwood's comments, part 
of the problem with the Pacific Northwest was that we 
legislated the cuts at 4 billion board feet a year in terms of 
sales, and that was way over the sustainablity level, and so 
that was done by us. We should have paid more attention to it. 
I think now we are faced with, obviously, forests are much 
more--the use is much more than just for timber harvest; of 
course, there's a broad array of different uses that they have.
    I don't know; I mean, I understand the forest plan, and I 
lived up close and personal with some of the problems. I was 
just going to point out to my colleagues that I was going over 
the appropriations testimony, and I saw when someone said 
something about creep in terms of mission, in fact, that is one 
of your responsibilities at the Conservation Reserve Program, 
where the Council on Environmental Quality, for instance, has 
to pass judgment on much of that policy that goes down. I also 
noted that so much of what we may be objecting to in terms of 
the enhanced role here is, in fact, done legislatively.
    I also noticed that--and I thought maybe that this would be 
important because there are two Udalls on the Committee--that 
the U.S. Institute for Environmental Dispute Resolution, now 
that all sit on that--you wear a lot of hats in this particular 
role. I mean, it seems to me that there is a case that could 
probably be made for quite a bit of personnel, if we really 
expect you to carry these roles out successfully. I mean, to 
have a central role in them, I would think that there would be 
more enthusiasm for, in fact, providing the proper funding.
    Of course, I am aware of, and this Committee I think has 
been very jealous in terms of, guarding its legislative 
prerogatives to the point of building up a mountain of work 
that we don't always put a dent in each year, especially when 
we have such a disagreement on the Committee and within the 
Congress on some of the issues that are before us. So the 
consequence is that a lot of other agencies, departments, and 
others have a lot of delegated responsibilities, administrative 
role, but we still retain some with the Committee, but I think 
that there is a broad array of responsibility in terms of the 
different land managers, and certainly with regard to CEQ and 
yourself in this role, Mr. Frampton, to carry out these 
responsibilities.
    I guess if you can deliver any more problems to us where 
you have got some solutions, I think it is helpful. I don't 
know; I can't promise that everyone is going to like the 
answer.
    Mr. Frampton. We don't want to deliver problems. We want to 
deliver solutions. I mean, you mentioned the creep. Just an 
example, I was out in Oregon a few weeks ago, going around with 
the governor and with some local people on watershed councils, 
restoration councils, and learned from people in the 
Agriculture Department that farmers there are not signing up; 
there is a lot of money, but farmers are not signing up for the 
conservation reserve enhancement program.
    Well, why not? Well, because they don't get--if they sign 
up for the program and they plant trees next to streams, they 
don't get--they are saying to the Agriculture Department, do we 
get a pass under the Clean Water Act? I mean, if we join your 
program, do we have other Federal agencies saying okay for 10 
years? And the answer is, we don't know. That is an example of 
something that, only if you are in the middle of this process 
where the roads cross can you say, well, yes, the answer to 
that ought to be yes.
    So how do we get to yes here? Well, we get EPA together 
with the Agriculture Department in Washington and the region 
and try to help the people in Ag who are on the ground be able 
to say yes to farmers. I mean, there are 1,000 ways in which 
our existing environmental laws cross, and not very many people 
in the Federal Government with the responsibility to see that 
they cross in an intelligent way.
    Mr. Vento. Bringing up that topic, I see the CEQ continues 
to work with EPA and USDA, the co-chairs of the Clean Water 
Action Plan, and that is another little task for you. I am 
specifically interested in urban policy or the smart growth 
type of plans. Obviously, we had boasted of having a pretty 
good policy regarding that in the State that I hail from, 
Minnesota, but I think it has fallen on hard times. But with a 
another name you will recognize, Ted Mondale, chairing the 
Metropolitan Council now, we hope that we will be breathing 
some new life into that particular process and be able to 
engage and use some of the Federal programs to help enhance 
that program.
    But thanks, George, thanks for your testimony. Thank you, 
Mr. Chairman.
    Mr. Hansen. The gentleman from Oregon, an additional 
question?
    Mr. Walden. Yes, thank you, Mr. Chairman. I appreciate 
that.
    I appreciate your comments about the interaction among 
Federal agencies. In fact, this meeting I had with the Forest 
Service, they pointed out, I believe, when they go to do 
something, there are 91 Federal laws that apply to them----
    Mr. Frampton. That sounds right.
    Mr. Walden. [continuing] and their frustration of trying to 
make sure everyone of those is met. And that is part of my 
frustration about Northwest Forest Plan, because they are 
saying we are not getting sued under the Endangered Species Act 
anymore; we are getting sued under the Clean Water Act. And, 
indeed, that is what is going on in the Columbia River today.
    Every problem has created a new Federal law over the last 
20 or 30 or 40 years, and it is darn near impossible to mesh 
them all and come out with an end product. And, yet, on the 
ground you can see the kind of work people are willing to do in 
the watersheds of Oregon to stop erosion, cool down streams, 
improve fish habitat. Sometimes we just feel so bound up that, 
no matter what we do, we are going to get hit.
    I want to go back to this green tree thing for just another 
thought. As I understand it, under the Clean Air Act there are 
power companies that get environmental credits, if you will, 
for planting trees down in Central America and around to add 
the cleaning the airsheds down there against them burning coal 
up here--PacifiCorps to be specific. They run ads on TV out 
there about how they are planting trees, and they told me that 
is because they get environmental credits against what they 
burn somewhere else.
    If planting trees down there helps the environment, how 
does that jive with what we were just talking about, that you 
don't feel you have the adequate science to make that 
determination? And do we, therefore, have conflicting policies?
    Mr. Frampton. You know, I am not familiar with what 
PacifiCorps has done in detail, but I think most of the forest 
enhancement or forest preservation projects that have generated 
Clean Air Act sulfur credits have been done through the 
preserving forests, buying forest and preserving forests, not 
growing new forest, but I may be wrong about that. I would be 
happy to respond to you, find out more about this and respond 
to you.
    Mr. Walden. I appreciate that.
    [The information may be found at the end of the hearing.]
    Mr. Frampton. And you raised a good--you and your 
colleagues have raised a good question here about the carbon 
retention issues, and I would like to respond more. I am just 
reluctant to respond on an issue which I don't know enough 
about and which I know that we need to know more about.
    Mr. Walden. That is just one of the 91 Federal laws that 
you probably have to know every detail of. So I appreciate that 
and look forward to your response.
    Mr. Frampton. Thank you.
    Mr. Hansen. Thank you.
    Mr. Frampton, as you know, we will have some additional 
questions. With your indulgence, we would like the submit those 
to you today. No fault to you, of course, but we have noticed 
in the past, when we submit questions we don't see answers for 
quite a while. You are not as bad as the Pentagon, however. 
Usually they wait until the issue is dead and then they bring 
it up.
    Mr. Frampton. But our issues never go away, Mr. Chairman, 
so we cannot do that.
    Mr. Hansen. We would appreciate as rapid a turnaround as 
possible. I often accuse the Pentagon that there is a room in 
the basement where they put studies and answers to 
congressional questions, hoping they will go away.
    [The information may be found at the end of the hearing.]
    Mr. Hansen. Let me just say one quick thing here that 
bothered me a little bit, and I will read this to you, and you 
can correct this error, if you are so inclined. The policy of 
NEPA states that Federal agencies will work in cooperation 
with, among others, local governments such as counties. This 
cooperation includes financial and technical assistance. Yet, 
when the regulations were promulgated for NEPA, they only 
included Federal agencies as being cooperating agencies, 
although it is my understanding that the BLM, Forest Service, 
and Park Service have issued a statement clarifying that State, 
local, and tribal governments can become cooperating agencies. 
This is currently not in the regulations.
    We got one thing saying one thing, and one saying another, 
if our guys are correct. Therefore, in my mind, I think that 
from your organization the regulation should be re-written to 
include State, local, and tribal governments as cooperating 
agencies. This basically comes from a lot of our local people 
who don't have a hand in these things, and I can't speak with 
firsthand knowledge to that effect, but if that is the case, it 
would seem to me it would be reasonable to amend that, so that 
the law and the regulation walk a parallel path.
    Mr. Frampton. Mr. Chairman, perhaps I can clarify that. My 
understanding is that both the law and the regulations provide 
that State and local governments and tribes may be cooperating 
parties in the NEPA process when they have special 
jurisdiction, but the issue there has been whether the agencies 
actually are generous in allowing them to be.
    Senator Thomas has introduced a bill that would change the 
law to require that such local governments be cooperating 
agencies. I had a meeting with him the week before last on 
that, and it is clear that, since he sees that CEQ has been 
pushing this but wants to push it further, in my discussions 
with him it was clear that what he was looking for was--I think 
the spirit of what you're looking for--is a stronger policy 
that is directed at the agencies. And I am actually looking at 
this. I think it is in the regulations, but it is not 
mandatory; it is permissive.
    Mr. Hansen. Well, I appreciate your answer. I guess Senator 
Thomas could do that, and we could take out a ``may'' and put a 
``shall'' in there, I guess, without much trouble. On the other 
side of the coin, I would be more curious at how you personally 
would look at it and how you would do it as the head man of 
CEQ.
    Mr. Frampton. Well, I personally think that CEQ needs to 
get out some kind of stronger policy or guidance telling the 
agencies that they should in most cases have the appropriate 
local and State agencies as cooperating agencies. I think we 
need to--I mean, I am in favor of this and so is Ms. McGinty. I 
think CEQ has worked on this issue with agencies before--to get 
the land management agencies, for example, to bring in more 
cooperating parties. The question is, whether we are going to 
be more emphatic in our policy or guidance, and I favor being 
more emphatic about it.
    Mr. Hansen. I would appreciate that and I think that makes 
a lot of sense.
    I yield to the gentleman from Minnesota.
    Mr. Vento. A different topic, but in some cases I suppose 
local governments may or may not have the resources or the 
expertise to participate in that level; would that be accurate?
    Mr. Frampton. Well, that is an issue. I think some local 
governments think that being a cooperating party gives them 
either a bigger decision role or somebody else to pay for their 
participation, and it doesn't give them either. So we don't 
want to create unfair expectations that the Federal Government 
or somebody else is suddenly going to pay for them to 
participate as a cooperating party.
    Mr. Vento. Well, I just wanted to make certain, as it were, 
because as you look at this, I mean, it is one thing to--it is 
going to take time, obviously, and energy, but if they are 
technically not--they can't offer the technical assistance or 
do the other type of work, then, obviously, what I think in 
those cases where you have that occur, I might say, Mr. 
Chairman, that maybe it is a question, then, of having the 
State do it, where you know most States would have that 
technical expertise, and then it would be a decision that they 
could work out between the States and local governments. But a 
lot of these decisions may fall on a government that does not 
have significant resources--that's all I'm suggesting--or the 
scientists on staff, and so forth, that they need. Because when 
I talk to the agencies that are doing this, they now claim they 
need Ph.D.'s and they need people with master's degrees, and so 
forth, to actually do the type of work that is required in some 
of the EIS's and EA's. I mean, that is what it takes. So I 
don't think we ought to kid ourselves about that.
    Mr. Hansen. I have been under the impression that the law 
provided the financial and technical assistance to the State 
governments. I really think they should have the option, 
though--I mean, just to be totally ignored is a little tough on 
these people, especially a little county or city where someone 
comes in and some high rolling thing goes on, and they are 
sitting there being the elected officials and having someone go 
over their head.
    You mentioned earlier to the gentleman from Minnesota, I 
believe it was, concerning that there was a council of one for 
a while there; when there should have been three, we had one 
person running the show. How is it going to go now? Are you 
going to be just you as chairman or are you going to have a 
couple of folks to help you out?
    Mr. Frampton. Well, as far as I know, Mr. Chairman, for the 
last whatever, 10 or 12 years, both the administration and the 
Congress have been happy to have the authority vested in one 
council member. I mean, I will tell you from my point of view, 
after four months in an acting capacity, that it works pretty 
well, obviously, from an agency this size.
    The problem is that we are a very downsized agency. I mean, 
the decision to go to one council member was made at a time, or 
in the 1980's, at a time when this agency was twice as big. So 
if you really wanted to have three council members and you had 
to support them, and staff and offices, and so forth, I think 
there is a fair question whether that would be a very useful 
use of the taxpayers' money at this point with an agency this 
size. Now, if we were, you know, a $30 million agency, that 
would be a different thing.
    Mr.  Hansen. What does the statute say? When it was 
created, wasn't it created by statute?
    Mr. Frampton. Yes, the statute contemplated three council 
members.
    Mr. Hansen. Does it say three or just kind of leaves that a 
little nebulous?
    Mr. Frampton. I believe it says three, yes.
    Mr. Hansen. I see.
    Mr. Frampton. But the Congress every year simply----
    Mr. Hansen. I get from your statement that you feel one is 
more than sufficient?
    Mr. Frampton. Well, you said, if we were a $30 million 
agency, would I like to have two colleagues? I think it would 
be a different situation, but would I like to spend 50 or 60 
percent of the budget supporting two more council members and 
having a third as many staff members; I am not sure that would 
be a very efficient use of your money.
    Mr.  Hansen. More of a theocracy than a democracy. No 
disrespect there.
    Well, Mr. Frampton, thank you for your indulgence, and we 
surely appreciate you being with us today and responding to our 
questions.
    Mr. Frampton. Thank you, Mr. Chairman.
    Mr. Hansen. The meeting will stand adjourned.
    [Whereupon, at 3:58 p.m. the Committee was adjourned.]
    [Additional material submitted for the record follows.]
   Statement of George T. Frampton, Jr., Acting Chairman, Council on 
        Environmental Quality, Executive Office of the President

    Mr. Chairman, Representative Miller, members of the House 
Resources Committee:
    I am pleased to have the opportunity to appear before the 
Committee to discuss the National Environmental Policy Act 
(NEPA). As you well know, NEPA is truly a landmark statute; 
indeed, it is the foundation of our nation's environmental 
policymaking. It is my statutory responsibility as Acting 
Chairman of the Council on Environmental Quality (CEQ) to 
oversee the Federal Government's implementation of NEPA, a 
responsibility I take very seriously.
    In enacting NEPA nearly 30 years ago, the Congress 
understood that true environmental protection can be achieved 
only by incorporating this goal into the very fabric of Federal 
decision making. In pursuit of this overarching objective, NEPA 
set forth four fundamental principles. The first is the full 
integration of environmental, economic and social objectives--
the recognition that they are not competing or contradictory, 
but inextricably linked. The second is sound decision-making 
based on thorough, objective analysis of all relevant data. The 
third is effective coordination of all Federal players in the 
development and execution of environmental policy. And the 
fourth is the democratization of decision making--giving 
citizens and communities a direct voice in decisions affecting 
their environment and their well being.
    Congress charged CEQ with lead responsibility for putting 
these principles into practice. Experience has shown that one 
of the best ways we can achieve this mission is by promoting 
partnerships among those responsible for creating, and those 
affected by, environmental policy. Indeed, state and local 
governments, the business community, and other stakeholders are 
looking to CEQ to play even a larger role in helping to forge 
such partnerships. For this reason, our Fiscal Year 2000 budget 
requests seek additional resources to carry out a Partnership 
Program that builds on CEQ's unique coordinating role within 
the Federal family.
    My appreciation of NEPA--and of the importance of 
collaborative approaches to environmental policy making--was 
heavily influenced by my experiences from 1993 to 1997 as 
Assistant Secretary of the Interior for Fish, Wildlife and 
Parks.
    Much of my work at Interior involved building teamwork and 
consensus among agencies within the Department; among various 
Federal departments and agencies with different priorities and 
missions; and among state and local governments, private 
landowners, and other stakeholders.
    One such undertaking was the Federal/state task force that 
developed a comprehensive restoration plan for the Everglades/
South Florida Ecosystem, the largest ecosystem restoration ever 
undertaken in the United States. This six-year effort, which 
enjoys bipartisan support at both the Federal and state level, 
is scheduled to come to fruition this June.
    Another major success was our effort to develop a new 
paradigm for the Endangered Species Act, including the 
pioneering use of Habitat Conservation Plans with private 
landowners, and collaborations with state and local governments 
such as Natural Communities Conservation Planning Program 
(NCCP) in the Southern California counties of San Diego, 
Orange, and Riverside Counties. In addition, in partnership 
with Governor Leavitt of Utah and the Western Governors 
Association, I helped craft a reform proposal for the 
Endangered Species Act that became an important basis for the 
Kempthome bill reported out of this Committee.
    As the lead Federal trustee in the Federal/state Exxon 
Valdez Oil Spill Trustee Council, I joined with then-Governor 
Wally Hickel of Alaska to forge a balanced, comprehensive 
program guiding the use of the civil penalty paid by Exxon to 
restore Prince William Sound and the Exxon Valdez spill area in 
South Central Alaska. This program, based on the best available 
science and broad public input, found wide support among 
Federal and state agencies, Native Corporations, fishermen, 
environmentalists, and local and Alaska residents.
    Working with the Alaska Department of Economic Development, 
the U.S. Department of Energy, and the National Park Service, I 
also negotiated an agreement to locate one of the nation's 
first Clean Coal Technology Demonstration Projects adjacent to 
Denali National Park. Among the benefits of this innovative 
project are improved visibility and air quality. Without this 
agreement, the project would have foundered.
    While at Interior, I came to recognize that almost every 
important environmental or natural resource issue facing the 
Federal Government today requires coordination among more than 
one Federal agency or department. Most of these issues also 
demand close cooperation, and often a sustained partnership, 
with state and local government as well.
    This is where CEQ--and NEPA, the statute that created it--
play an absolutely indispensable role.
    Earlier, I summarized the four core principles underlying 
NEPA. To advance these principles, the statute established 
three primary mechanisms. The first is the explicit requirement 
that agencies fully integrate NEPA's goals and policies into 
their planning and their day-to-day activities. The second is 
the environmental review process, which ensures rational 
decision making informed by sound data and full public 
participation. The third is CEQ, a permanent environmental body 
within the Executive Office of the President.
    CEQ's principal role is to advise the President on the 
development of environment policy. Other responsibilities 
include monitoring environmental trends, assessing the success 
of existing policies, advising Federal agencies on their 
responsibilities under NEPA and, when necessary, mediating NEPA 
conflicts among the agencies. But one of the most critical 
roles assigned to CEQ by the Congress is coordinating the work 
of the Federal family on environmental issues.
    Over the past four months as Acting Chairman of CEQ, a very 
large part of my work has been oriented to this practical, 
problem-solving side of CEQ's mandate: seeing to it that 
Federal departments and agencies are on the same page, are 
working together.
    I've been reminded often, as I was at the Interior 
Department, how important it is that the Federal family speak 
with one voice. This subject comes up over and over again with 
mayors, county executives, and governors, as well as with 
representatives of regulated groups and industries.
    In November, when I addressed the Western Governors 
Association (WGA) meeting in Phoenix, many of the Governors 
explained how important CEQ is to them because it is the only 
place where ``all roads cross'' when it comes to Federal 
environmental policy. It is the only place they can go for help 
when they are caught between Federal environmental statutes or 
agencies, or want to appeal an agency policy or decision. In 
fact, several governors said publicly they are dismayed that 
CEQ is so small and has so few resources, given the importance 
of its role to their constituents.
    A significant part of CEQ's casework relates to the NEPA 
process, and particularly to the preparation of Environmental 
Impact Statements (EIS) and Environmental Assessments (EA). 
Typical of CEQ's involvement is a recent settlement in a case 
involving the Longhorn Pipeline, which runs from Austin to San 
Antonio. A proposal to use this former oil pipeline to transmit 
natural gas--serving, among other things, poor communities with 
inadequate energy supply--faced potentially fatal delays 
because proponents sought to avoid NEPA's applications and a 
Federal court held that an EIS might be required. A CEQ-
brokered court settlement satisfactory to all parties calls for 
prompt preparation of a robust EA that will provide the public 
with ample information and meet NEPA legal requirements in time 
to allow for key investment decisions.
    State and local governments, and other stakeholders, look 
to CEQ for leadership on new initiatives as well. For example, 
last fall the Governors of California, Oregon, Washington, and 
Alaska asked the Administration to create a Federal fund to 
help them restore endangered coastal salmon runs--with an 
absolute minimum of Federal red tape. But to ensure 
accountability to the Federal Government and Congress, and 
coordination on a regional basis, the Governors proposed that 
the Federal coordinating role be undertaken by CEQ. Responding 
to their request, the President's proposed FY 2000 budget 
indeed includes a $100 million Pacific Coastal Salmon Recovery 
fund to help states, tribes and local communities restore 
coastal salmon.
    Clearly CEQ's ``casework'' and coordinating roles are also 
very important to many Members of Congress. The number of 
requests and referrals from Members seeking improved NEPA 
coordination among the agencies is increasing every year.
    Yet CEQ today has fewer staff members and a smaller budget 
than it had during much of the 1970's--nearly a third less 
staff even than at the end of the Bush Administration.
    For this reason, the President's proposed FY 2000 Budget 
requests additional funding for CEQ to carry out the 
``partnership program'' to work more closely with governments, 
mayors, and private individuals in collaborative initiatives 
and in problem-solving in the field.
    My vision for CEQ is no more and no less than the vision I 
believe Congress had in 1969: a balanced, coordinated and 
effective Federal environmental policy; and a process for 
democratic, informed environmental decision making.
    In six years this Administration has compiled a record of 
strong enviromnental protection as good as that of any 
President in history, while catalyzing and overseeing the 
strongest economic recovery since World War II. There is no 
longer any reason to debate whether rigorous environmental 
standards go hand in hand with economic progress. The history 
is now clear, and the record speaks for itself.
    I am proud of the part CEQ--and NEPA--have played in 
establishing that record and look forward to working with the 
Congress to continue building on it, for the sake of our 
environment and the American people.

</pre></body></html>
